        We also found that the evaluation panel believed it was urgent to select grant recipients
as quickly as possible. As a result, the panel changed their evaluation method for 12 of the total
76 applications. Applications were initially scored by individual evaluators, and scores were then
averaged to determine a final score. Due to the pressure to expedite the awards, the four member
panel did not review all applications. The panel reviewed the last 12 applications using a team-
scoring process involving only a subset of the panel, consisting of at least two evaluators. We
found that six of these grant applications received scores near the range selected for an award. If
only two members score an application, we are concerned that these may not be consistent with
average scores of the entire panel and that, if these applications had been scored by the entire
panel, some may have received awards.

      After the applications were scored, the panel members discussed the scores to determine
those selected for awards. Tied scores were resolved by the panel based on which historic
structure was in more need of repair or preservation. We found that no panel discussions were
formally documented. The failure to document discussions makes it difficult to provide
unsuccessful applicants with an explanation of the reasons why their applications were
unsuccessful, as required by 505 DM 2.16 B.

      We also found that the NPS program manager believes this grant program is exempt from
the Secretary's accelerated project mobilization date because the grant announcement indicated
there would be a three-year timeframe to complete projects. The schedule permitted one year for
design and two more years for actual construction work. The NPS manager considers this
previously announced schedule to be a contractual obligation that is not affected by the
Secretary’s subsequent announcement to accelerate the mobilization of ARRA projects.

Recommendations

We recommend that the Director of NPS:

       1.	   Direct a review of the selection process and take appropriate action to mitigate any
             perceived inequities.

       2.	   Ensure all grant applications are scored on the basis of announced criteria in
             accordance with 505 DM 2.

       3.	   Ensure that evaluation panels consistently evaluate all applications, using the
             announced criteria, and document panel discussions in an award summary document.

       4.	   Determine if the HBCU program is subject to the Secretary’s accelerated 

             mobilization date. 


cc: 	 Senior Advisor to the Secretary for Economic Recovery and Stimulus
      Deputy Secretary, Department of the Interior
      Assistant Secretary – Policy, Management, and Budget
      Acting Director, Office of Financial Management
      Director, Office of Acquisition and Property Management


                                                                                                    2
    
    Chief, Historic Architecture Branch, National Park Service
    Departmental GAO/ OIG Audit Liaison
    Audit Liaison, Office of the Secretary
    Audit Liaison, National Park Service
    Recovery Coordinator, National Park Service




                                                                 3
 
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
